App. 1
APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAUL CARRICK,
Plaintiff-Appellant,
v.
TAMYRA ANN RICE, Santa
Cruz County Counsel; et al.,

No. 18-16257
D.C. No.
5:18-cv-00454-LHK
MEMORANDUM*
(Filed Jan. 23, 2019)

Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California
Lucy H. Koh, District Judge, Presiding
Submitted January 15, 2019**
Before: TROTT, TALLMAN, and CALLAHAN, Circuit
Judges.
Paul Carrick appeals pro se from the district
court’s judgment dismissing his 42 U.S.C. § 1983 action
alleging federal and state law violations arising out of
Santa Cruz County’s destruction of structures on his
property. We have jurisdiction under 28 U.S.C. § 1291.
We review de novo. Garity v. APWU Nat’l Labor Org.,
828 F.3d 848, 854 (9th Cir. 2016) (collateral estoppel);
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
Stewart v. U.S. Bancorp, 297 F.3d 953, 956 (9th Cir.
2002) (res judicata). We affirm.
The district court properly dismissed Carrick’s ac­
tion as barred by the doctrines of res judicata and col­
lateral estoppel because Carrick’s claims were raised,
or could have been raised, in prior federal and state
actions, and the issues regarding the legality of the
Abatement Order and the preemptive effect of the
Homestead Act were litigated and necessarily decided
in those actions. See White v. City of Pasadena, 671 F.3d
918, 926-27 (9th Cir. 2012) (federal and California doc­
trines of collateral estoppel); San Diego Police Officers
Ass’n v. San Diego City Emps.’Ret. Sys., 568 F.3d 725,
734 (9th Cir. 2009) (California doctrine of res judicata);
Stewart, 297 F.3d at 956 (“Res judicata applies when
there is: (1) an identity of claims; (2) a final judgment
on the merits; and (3) identity or privity between par­
ties.” (citation and internal quotation marks omitted)).
The district court did not abuse its discretion by
denying Carrick leave to amend because amendment
would have been futile. See Gordon v. City of Oakland,
627 F.3d 1092,1094 (9th Cir. 2010) (setting forth stand­
ard of review and explaining that leave to amend may
be denied because amendment would be futile).
Because We affirm the district court’s dismissal on
the basis of res judicata and collateral estoppel, we do
not consider the parties’ contentions regarding the
sanctions motion.
We reject as meritless Carrick’s contentions regard­
ing the district court’s violation of his Sixth Amendment

App. 3
right to a jury trial, its complicity in the destruction of
the structures on his property, and its responsibility for
his failure to file an opposition to the motion to dismiss.
We do not consider issues that were not specifi­
cally and distinctly raised and argued in Carrick’s
opening brief. See Padgett u. Wright, 587 F.3d 983, 985
n.2 (9th Cir. 2009).
AFFIRMED.

App. 4
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
PAUL CARRICK,

Case No. 18-CV-00454-LHK

Plaintiff,

ORDER GRANTING
MOTION TO DISMISS;
GRANTING MOTION
FOR SANCTIONS

v.
TAMYRA RICE, et al.,
Defendants.

(Filed Jun. 28, 2018)
Re: Dkt. Nos. 13,16

Plaintiff Paul M. Carrick (“Plaintiff”) brings this
action against the following Santa Cruz County (“County”)
Defendants: County Planning Department Director
Kathy Previsitch; County Counsel Tamyra Rice; Prin­
cipal Planner for Code Compliance Robin Bolster-Grant;
Sheriff-Coroner’s Office Lieutenant Fred Plageman;
and Sheriff-Coroner’s Office Sergeant Patrick Dimick.
Plaintiff also names as Defendants Does 1 through 32,
including Padzanno Demolition Company employees.
Id.
Defendants have filed a motion to dismiss and a
motion for sanctions. Having considered the parties’
submissions, the relevant case law, and the record in
this case, the Court GRANTS Defendants’ motion to
dismiss and GRANTS Defendants’ motion for sanc­
tions.

App. 5
I.

BACKGROUND
A. Carrick I

Plaintiff alleges that he is the owner of real prop­
erty located in Santa Cruz County at 105 Silverline
Road, Los Gatos, California (“Property”). ECF No. 1
1. The land was granted a patent in 1893 via the
Homestead Act, Id. Plaintiff alleges that he developed
the property with structures to comply with the Home­
stead Act. Id.
On November 28, 2007, the County filed a com­
plaint against Plaintiff in the Superior Court of Santa
Cruz County (“Superior Court”) for violating Santa
Cruz County Code by unlawfully constructing several
structures on the Property. ECF No. 17-1, Defs.’ Req.
Jud. Notice (“RJN”), Ex. A.1 Meanwhile, Plaintiff filed
1 The following facts Eire taken from Plaintiff’s complaint
and judicially noticeable documents attached to Defendants’ re­
quest for judicial notice. ECF No. 17. The exhibits are orders and
pleadings from prior related proceedings in Santa Cruz County
Superior Court, Case No. CV158731 (“Carrick /”); from Carrick v.
Santa Cruz County, et al. No 12-CV-03852-LHK (“Carrick II”);
from Carrick v. Santa Cruz County, et al. Case No. 12-CV-03852LHK (“Carrick III”); and from Carrick v. Santa Cruz County Plan­
ning Department, et al., Case No. 17-CV-03482-LHK (“Carrick
TV”). Public records, including judgments and other court docu­
ments, are proper subjects of judicial notice. See, e.g., United
States v. Black, 482 F.3d 1035, 1041 (9th Cir. 2007). Plaintiff has
not objected to the substance of the request for judicial notice, but
rather seems to assert that it should also have included his prior
oppositions to Defendants’ motions. See ECF No. 22 at 2-3. Even
construed liberally, Plaintiff’s concern fails to raise a meaningful
objection to Defendants’ request for judicial notice, especially
given that Plaintiff is free to attempt to submit those documents
as part of his own request for judicial notice.

App. 6
a cross-action against the County and others, seeking
writ of mandate and declaratory relief. See ECF No. 172, RJN, Ex. B (Santa Cruz County Superior Court,
Case No. CV158731, “Garrick I”). The County then
filed a demurrer to Plaintiff’s cross-action. The Supe­
rior Court overruled the demurrer as to Plaintiff’s first,
second, third, and fourth causes of action (due process
violations, nonconforming use, state law preemption of
the County’s policy and procedures, and nuisance) and
sustained the demurrer as to Plaintiff’s fifth and sixth
causes of action (latches and equitable estoppel). See
ECF No. 17-3, RJN, Ex. C.
Plaintiff’s surviving causes of action proceeded to
trial, and the Superior Court ruled in favor of the
County on all surviving claims. See ECF No. 17-4, RJN,
Ex. D. Accordingly, on April 9,2010, the Superior Court
entered judgment for the County in Plaintiff’s cross­
action (“April 9,2010 Judgment”). See id. Plaintiff then
appealed the April 9, 2010 Judgment. See ECF No. 175, RJN, Ex. E. The California Court of Appeal for the
Sixth District (“California Court of Appeal”) upheld the
Superior Court’s rulings in all respects but one: the
California Court of Appeal held that the County was
not authorized to record a Notice of Violation (“NOV”)
against Plaintiff’s property without a court order. See
id. In response, the County expunged the NOV, and on
May 24, 2011, the Superior Court ordered the re­
recording of the NOV. See ECF No. 17-6, RJN, Ex. F.
Plaintiff then appealed the April 9, 2010 Judgment to
the California Supreme Court, which declined to hear
Plaintiff’s appeal. Finally, the United States Supreme

App. 7
Court denied Plaintiff’s petition for writ of certiorari,
at which time the judgment became final.
B. Carrick II
Plaintiff filed a complaint in United States Dis­
trict Court on July 24, 2012, against the County and
the County Recorder (among others), which he then
amended on July 31, 2012. See Carrick v. Santa Cruz
County, et al. No 12-CV-03852-LHK, 2013 WL 3802809
(“Carrick IF), ECF No. 1; ECF No. 23. Plaintiff’s
amended complaint alleged eight enumerated causes
of action, including (1) cancellation of instrument and
removal of cloud of title, and (2) land patent protec­
tions of property rights under the Homestead Act. See
ECF No. 23.
Defendants filed a motion to dismiss on August 15,
2012. See Carrick II, ECF No. 63. On November 30,
2012, this Court issued an order denying Plaintiff’s
motion for a preliminary injunction and granting De­
fendants’ motion to dismiss. See Carrick II, ECF No.
88, Order Granting Motion to Dismiss (“November 30,
2012 Order”). Among the claims this Court dismissed
were Plaintiff’s causes of action alleging (1) cancella­
tion of instrument and removal of cloud of title and
(2) land patent protections of property rights under the
Homestead Act. Id. at 1718. The November 30, 2012
Order granted Plaintiff leave to amend Plaintiff’s
claims under 42 U.S.C. § 1983 (“Section 1983”), but de­
nied leave to amend all other claims. Id. at 18.

App. 8
Plaintiff filed his Second Amended Complaint on
December 20, 2012. See Carrick II, ECF No. 89. On
January 3, 2013, Defendants filed a second motion to
dismiss Plaintiff’s complaint. See Carrick II. On July
16, 2013, the Court granted Defendants’ motion to dis­
miss Plaintiff’s Second Amended Complaint with prej­
udice. See Carrick II, ECF No. 104. On July 19, 2013,
judgment was entered in favor of all defendants. See
Carrick II, ECF No. 105. On July 29, 2013, Plaintiff
filed a notice of appeal. See Carrick II, ECF No. 106.
The Ninth Circuit affirmed this Court’s rulings. Car­
rick v. Santa Cruz Cty., 594 F. App’x 443 (9th Cir. 2015).
C. Carrick III
On April 8,2013, Carrick filed another suit against
the County and County employees in this Court, alleg­
ing causes of action under the Homestead Act and
Quiet Title Act. See Carrick v. Santa Cruz County, et
al., No. 13-CV-01632-LHK, 2013 WL 5716166 (“Carrick
IIF), ECF No. 1. On May 3, 2013, Defendants filed a
motion to dismiss Plaintiff’s complaint. See Carrick
III, ECF No. 14.
On October 18,2013, the Court granted the motion
to dismiss with prejudice. Carrick III, ECF No. 25. The
Court found that res judicata barred Plaintiff from
bringing a claim under the Homestead Act because
Plaintiff had already made claims based on the Home­
stead Act in Carrick II. Id. at 8. The Court further
found that Plaintiff’s Quiet Title Act claim was barred
under res judicata because it arose from the same

App. 9
transactional nucleus of facts as Plaintiff’s claims in
Carrick II, in that both Carrick II and Carrick III
stemmed from the County’s attempt to enforce regula­
tions on Plaintiff’s property. Id. at 8-9. The Ninth Cir­
cuit affirmed the Court’s dismissal that found res
judicata barred Plaintiff’s Homestead Act and Quiet
Title Act claims. Carrick v. Santa Cruz Cty. Assessor/
Recorder, 594 F. App’x 929 (9th Cir. 2015).
D. County Abatement Order
On October 10, 2013, the Superior Court granted
the County’s motion for an Order Confirming County’s
Authority to Abate and Assess Costs (“Abatement Or­
der”) in Carrick I. See ECF No. 17-10, RJN, Ex. J. The
Abatement Order required Plaintiff to remove his per­
sonal property from the Property and authorized the
County to abate all violations on the Property, includ­
ing demolition of all unpermitted structures, any time
after December 1, 2013. Id. Plaintiff appealed the
Abatement Order to the California Court of Appeal,
which affirmed the Abatement Order on May 26, 2015.
ECF No. 17-11, RJN, Ex. K. The County then enforced
the Abatement Order by demolishing structures on the
Property. ECF No. 16 at 9.
E. Carrick IV
On June 15,2017, Plaintiff filed another complaint
in federal court, thus beginning Carrick IV. ECF No.
17-13, RJN, Ex. M (order dismissing Carrick IV with
prejudice). On December 15, 2017, the Court granted

App. 10
Defendants’ motion to dismiss with prejudice. The
Court found that all but one of Plaintiff’s claims de­
rived from the same Homestead Act theory that Carrick II had considered and rejected. Id. at 7-9; see id. at
8 (“[Although Plaintiff is not asserting a direct Home­
stead Act claim as he previously did in Carrick II,
Plaintiff is still arguing the same issue, i.e. whether the
Homestead Act preempts state and local laws. This
supports a finding of collateral estoppel.”). The Court
dismissed Plaintiff’s remaining claim under RookerFeldman. Id. at 9-10.
On January 8, 2018, the Court denied Plaintiff’s
motion for leave to file a motion for reconsideration.
ECF No. 17-14, RJN, Ex. N. Plaintiff did not appeal.
F. Carrick V
On January 19, 2018, less than two weeks after
the Court denied Plaintiff’s motion for reconsideration
in Carrick IV, Plaintiff initiated Carrick V by filing the
instant complaint in federal court. ECF No. 1.
On February 6,2018, Defendants filed a motion for
sanctions. ECF No. 13. On February 13, 2018, Plaintiff
filed an opposition. ECF No. 22. On February 27, 2018,
Defendants filed a reply. ECF No. 24. On February 12,
2018, Defendants filed a motion to dismiss. ECF No.
16. Plaintiff has not filed an opposition, and Defend­
ants have not filed a reply.

App. 11
On February 13, 2018, the Court related the in­
stant case to Carrick II, Carrick III, and Carrick TV and
reassigned the case to this Court. ECF Nos. 19, 20.
On June 13, 2018, Plaintiff filed an amended com­
plaint attached to a joint case management statement.
ECF No. 35.
II.

LEGAL STANDARD
A. Motion to Dismiss Under Rule 12(b)(6)

Rule 8(a)(2) of the Federal Rules of Civil Procedure
requires a complaint to include “a short and plain
statement of the claim showing that the pleader is en­
titled to relief.” A complaint that fails to meet this
standard may be dismissed pursuant to Federal Rule
of Civil Procedure 12(b)(6). The United States Su­
preme Court has held that Rule 8(a) requires a plain­
tiff to plead “enough facts to state a claim to relief that
is plausible on its face.” BellAtl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). “A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ash­
croft v. Iqbal, 556 U.S. 662,678 (2009). “The plausibility
standard is not akin to a probability requirement, but
it asks for more than a sheer possibility that a de­
fendant has acted unlawfully.” Id. (internal quotation
marks omitted). For purposes of ruling on a Rule
12(b)(6) motion, the Court “accept[s] factual allega­
tions in the complaint as true and constructs] the
pleadings in the light most favorable to the nonmoving

App. 12
party.”Manzarek v. St. Paul Fire & Marine Ins. Co., 519
F.3d 1025,1031 (9th Cir. 2008). Moreover, pro se plead­
ings are to be construed liberally. Resnick v. Hayes, 213
F.3d 443,447 (9th Cir. 2000) (“[I]n general, courts must
construe pro se pleadings liberally.”).
The Court, however, need not accept as true alle­
gations contradicted by judicially noticeable facts, see
Schwarz v. United States, 234 F.3d 428, 435 (9th Cir.
2000), and it “may look beyond the plaintiff’s com­
plaint to matters of public record” without converting
the Rule 12(b)(6) motion into a motion for summary
judgment, Shaw v. Hahn, 56 F.3d 1128, 1129 n.l (9th
Cir. 1995). Nor must the Court “assume the truth of
legal conclusions merely because they are cast in the
form of factual allegations.” Fayer v. Vaughn, 649 F.3d
1061, 1064 (9th Cir. 2011) (per curiam) (internal quo­
tation marks omitted). Mere “conclusory allegations of
law and unwarranted inferences are insufficient to de­
feat a motion to dismiss.” Adams v. Johnson, 355 F.3d
1179,1183 (9th Cir. 2004).
B. Leave to Amend
If the Court determines that a complaint should
be dismissed, it must then decide whether to grant
leave to amend. Under Rule 15(a) of the Federal Rules
of Civil Procedure, leave to amend “shall be freely
given when justice so requires,” bearing in mind “the
underlying purpose of Rule 15 to facilitate decisions on
the merits, rather than on the pleadings or technicali­
ties.” Lopez v. Smith, 203 F.3d 1122, 1127 (9th Cir.

App. 13
2000) (en banc) (alterations and internal quotation
marks omitted). When dismissing a complaint for fail­
ure to state a claim, “a district court should grant leave
to amend even if no request to amend the pleading was
made, unless it determines that the pleading could not
possibly be cured by the allegation of other facts.” Id.
at 1130 (internal quotation marks omitted). Accord­
ingly, leave to amend generally shall be denied only if
allowing amendment would unduly prejudice the op­
posing party, cause undue delay, or be futile, or if the
moving party has acted in bad faith. Leadsinger, Inc. v.
BMG Music Publ’g, 512 F.3d 522, 532 (9th Cir. 2008).
III. DISCUSSION
The Court begins with the threshold question of
whether Plaintiff has mooted Defendants’ motion to
dismiss by subsequently filing an amended complaint.
The Court finds that Plaintiff has not mooted the mo­
tion to dismiss. The Court then turns to the motion to
dismiss, and finds that the motion must be granted be­
cause Plaintiff has not filed an opposition. Finally, the
Court examines Defendants’ motion for sanctions. The
Court finds that sanctions are warranted.
A. Amended Complaint
Under Rule 15 of the Federal Rules of Civil Proce­
dure, “[a] party may amend its pleading once as a mat­
ter of course within ... 21 days after service of a
responsive pleading or 21 days after service of a motion
under Rule 12(b), (e), or (f), whichever is earlier.” Fed.

App. 14
R. Civ. P. 15(a)(1)(B). “In all other cases, a party may
amend its pleading only with the opposing party’s
written consent or the court’s leave.” Fed. R. Civ. P.
15(a)(2); see Ramirez v. Cty. of San Bernardino, 806
F.3d 1002,1008 (9th Cir. 2015) (“Since 2009, a plaintiff
has the right to amend within twenty-one days of ser­
vice of the complaint (15(a)(1)(A)), or within twentyone days of service of a responsive pleading or service
of a motion under Rule 12(b), (e), or (f), whichever
comes first (15(a)(1)(B)).”).
Defendants filed their motion to dismiss on Febru­
ary 12, 2018. ECF No. 16. Pursuant to Rule 15, Plain­
tiff had 21 days from that point to amend his complaint
as a matter of course, i.e. until March 5, 2018. Plaintiff
did not meet this deadline. Plaintiff filed the amended
complaint on June 13, 2018, which is 121 days after
February 12, 2018. In turn, because Plaintiff was out­
side the 21 day window, Plaintiff was required to se­
cure “the opposing party’s written consent or the
court’s leave” in order to file the amended complaint.
Fed. R. Civ. P. 15(a)(2). Plaintiff did not obtain Defend­
ants’ consent or leave of this Court. Thus, the Court
STRIKES the amended complaint.
B. Motion to Dismiss
Defendants filed a motion to dismiss on February
6, 2018. ECF No. 16 (“Mot.”). Plaintiff was required to
file an opposition by February 26,2018. See id. Plaintiff
failed to file an opposition by February 26, 2018. In
fact, Plaintiff has not filed an opposition in the almost

App. 15
five months since Defendants filed their motion to dis­
miss.2 The Court is therefore required to grant Defend­
ants’ unopposed motion to dismiss. However, in light
of the of the [sic] liberal construction afforded to pro se
litigants’ filings, the Court considers whether the two
documents that Plaintiff filed before the February 26,
2018 deadline can be construed as an opposition to De­
fendants’ motion to dismiss.
First, on February 24, 2018, Plaintiff filed a form
that consented to magistrate judge jurisdiction. ECF
No. 23. The one-page form is standardized and con­
tains no legal analysis. It cannot be construed as an
opposition.
Second, on February 13, 2018, Plaintiff filed an op­
position (“Opposition”) to Defendants’ separate motion
for sanctions. ECF No. 22 (“Opp.”); see ECF No. 13 (de­
fendants’ motion for sanctions). The Opposition cannot
be construed as a response to the motion to dismiss.
' Every page of the Opposition states that it is an “Op­
position to Motion for Sanctions.” See Opp. The Oppo­
sition’s substantive arguments underscore the point.
Although the Opposition attempts to rebut Defend­
ants’ motion for sanctions, the Opposition nowhere
mentions any of the arguments presented in Defend­
ants’ motion to dismiss. See id. For instance, although
Defendants center their motion to dismiss on res
2 The closest thing to an opposition that Plaintiff has filed is
entitled a “joint case management statement” and was not filed
until May 23, 2018—almost three months after the February 26,
2018 deadline to file an opposition. ECF No. 32. The Court there­
fore declines to consider it.

App. 16
judicata and collateral estoppel, neither term even
appears in the Opposition. Compare Opp. with Mot. at
5-9. Indeed, the closest the Opposition comes to men­
tioning the motion to dismiss is a brief reference to the
accompanying motion to dismiss. See Opp. at 2 (“Like­
wise, the DEFENDANT attempt to evade the PLAIN­
TIFF’S COMPLAINT by their voluminous COUNTY’S
REQUEST FOR JUDICIAL NOTICE IN SUPPORT
OF MOTION TO DISMISS”).
The bottom line is that the Opposition’s title and
substance clearly demonstrate that it is only address­
ing Defendants’ motion for sanctions. The Court recog­
nizes that pro se filings are to be construed liberally.
Bernhardt v. Los Angeles Cty., 339 F.3d 920, 925 (9th
Cir. 2003) (“Courts have a duty to construe pro se
pleadings liberally, including pro se motions as well as
complaints.”). However, even liberally construed Plain­
tiff’s Opposition does not respond to Defendants’ mo­
tion to dismiss. The Court must therefore grant
Defendants’ unopposed motion to dismiss. See Stewart
v. Monogram Biosciences, 2011WL 6140899, at *2 (N.D.
Cal. Dec. 9, 2011) (noting that there are limits to the
liberal construction afforded to pro se litigants and
providing examples).
Even if the Court could construe the Opposition
as responding to Defendants’ motion to dismiss, the
Opposition would be unpersuasive. Defendants’ princi­
pal argument is that Plaintiff’s claims are barred by
res judicata, collateral estoppel, or both. Mot. at 5-9.
Defendants note that Carrick III and Carrick IV found
that that Plaintiff’s claims that derived from the

App. 17
Homestead Act were barred by claim and issue pre­
clusion, and argue that the same outcome should ob­
tain here because Plaintiff’s claims again rest on the
same underlying Homestead Act theory. Id. The Court
agrees, especially because the closest Plaintiff comes to
addressing Defendants’ preclusion arguments is sug­
gesting that the Court’s decision in Carrick TV misun­
derstood the Homestead Act and therefore does not
apply. See Opp. at 2 (“Judge Koh miss-interpreted
HOMESTEAD CERTIFICATE 4889 as a private eq­
uity instead of as a Law of the United States, passed
by the Legislature and signed by the President of the
United States.”). The Court does not agree that its
prior decisions misinterpreted the Homestead Act.
Moreover, the Ninth Circuit affirmed this Court’s
Homestead Act rulings in Carrick II and Carrick III.
The Court is aware of no authority holding that a liti­
gant’s disagreement with a judicial decision nullifies
its preclusive effect. Thus, the Court would grant De­
fendants’ motion even if Plaintiff’s Opposition could be
construed as a response to it.
In sum, the Court GRANTS Defendants’ motion to
dismiss because Plaintiff has failed to oppose it. How­
ever, the Court would grant the motion to dismiss even
if Plaintiff’s Opposition could be construed as a re­
sponse to the motion to dismiss.
C. Leave to Amend
Although Rule 15(a) of the Federal Rules of Civil
Procedure provides that leave to amend “shall be freely

App. 18
given when justice so requires,” it is well-established
that leave to amend may be denied if the moving party
has acted in bad faith, or if allowing amendment would
unduly prejudice the opposing party, cause undue de­
lay, or be futile. Leadsinger, 512 F.3d 522, 532 (9th Cir.
2008). Amendment would be futile if “the pleading
could not possibly be cured by the allegation of other
facts.” Lopez, 203 F.3d at il30.
The Court finds that amendment would be futile
- because, as in Carrick II, Carrick III, and Carrick TV,
Plaintiff’s claims derive from his incorrect belief that
the Homestead Act prohibits Defendants from regulat­
ing his property. Plaintiffs complaint makes this point
inescapably clear. See, e.g., ECF No. 1 at 1 (title of com­
plaint listing “Homestead Certificate 4889” as the first
item); id. at 2-7 (first count describing the chain of title
leading to Homestead Certificate 4889 in exhaustive
detail); id. at 26 (tenth count of complaint alleging that
“[t]o defraud a legitimate patentee of his homestead
granted to him under the Homestead Act is to commit,
Rebellion or Insurrection, 18 USCS 2383.”); id. at 30
(thirteenth count alleging Defendants committed fraud
by regulating Plaintiff’s property under Santa Cruz
ordinances when “These Code have no authority on
Plaintiffs Land as the Defendants maintain. Authority
has been vested in the Plaintiff since he accepted the
terms of Homestead Certificate 4889,”). The Ninth Cir­
cuit has affirmed this Court’s dismissals of Carrick II
and Carrick III. Thus, just as in Carrick TV amendment
would be futile because “there is no set of facts under
which Plaintiff will not be collaterally estopped from

App. 19
raising another Homestead Act claim in connection
with the County’s abatement actions on the Property.”
ECF No. 17-13, RJN, Ex. M at 10-11.
Amendment would also unduly prejudice Defend­
ants. Since 2012, Plaintiff has subjected Defendants to
four separate federal suits. Plaintiff has not prevailed
in any of these suits. In fact, the Ninth Circuit has
twice affirmed this Court’s dismissals. Carrick v. Santa
Cruz Cty., 594 F. App’x 443 (9th Cir. 2015) (Carrick II
appeal); Carrick v. Santa Cruz Cty. Assessor/Recorder,
594 F. App’x 929 (9th Cir. 2015) (Carrick III appeal).3
These suits have not been meaningfully distinct, which
is why the Ninth Circuit affirmed this Court’s res judi­
cata dismissal of Carrick III, and this Court dismissed
all but one4 of Plaintiff’s claims in Carrick IV on col­
lateral estoppel grounds. ECF No. 17-13, RJN, Ex. M
(order dismissing Carrick IV with prejudice); Assessor/
Recorder, 594 F. App’x 929 (9th Cir. 2015) (“The district
court properly dismissed the action because Carrick’s
claims were raised, or could have been raised, in a prior
federal action between the parties that resulted in a
final judgment on the merits.”). The bottom line is
that Defendants have been forced to litigate what is
essentially the same suit for over six years in four
3 The Ninth Circuit has not had occasion to review this Court’s
dismissal in Carrick IV because Plaintiff chose not to appeal.
4 The Court dismissed Plaintiff’s remaining 42 U.S.C. § 1983
claim under Rooker-Feldman barred because Plaintiff was at­
tempting to circumvent the Superior Court’s Abatement Order.
ECF No. 17-13, RJN, Ex. M at 9-10. Thus, even the § 1983 claim
was attempting to relitigate something that had been previously
decided.

App. 20
different federal lawsuits. This federal litigation is in
addition to Plaintiff’s repetitive state court litigation.
Enough is enough. The Court finds that it would un­
duly prejudice Defendants to prolong Carrick V any
further.
In sum, the Court denies leave to amend because
the Court finds that granting leave to amend would be
futile and would unduly prejudice Defendants.
D. Motion for Sanctions
On February.6,2018, Defendants filed a motion for
sanctions. ECF No. 13. Defendants’ motion was filed
before this case was reassigned to the undersigned
judge. Thus, the motion requests that the Court either
“dismiss Case No. 3:18-cv-00454-JSC per Civil Local
Rule 3-3(c), or in the alternative transfer the matter to
the Hon. Lucy H. Koh per Civil Local Rule 3-2(h).” Id.
at 4. As the latter request has already been granted,
the Court is here concerned solely with the former.
Defendants’ request for dismissal relies on Local
Rule 3-3(c), which provides that a Court may award
“appropriate sanctions” against “[a]ny party who files
an action in multiple divisions or dismisses an action
and subsequently refiles it for the purpose of obtaining
an assignment in” a different division. Defendants note
that the instant suit names the same parties and
brings nearly identical causes of action to those in Car­
rick TV. ECF No. 13 at 3. Defendants note further that
Plaintiff filed the instant suit in the San Francisco
Division less than two weeks after the Court denied

App. 21
Plaintiff’s motion for leave to file motion for reconsid­
eration in Carrick IV. Compare ECF No. 17-14, RJN,
Ex. N (order in Carrick IV denying Plaintiff’s motion
on January 8, 2018) with ECF No. 1 (complaint initiat­
ing the instant suit filed on January 19, 2018). Defend­
ants therefore argue that Plaintiff violated Local Rule
3-3(c) because Plaintiff has refiled the same action in
multiple divisions in order to obtain an assignment in
another division. See ECF No. 13 at 3-4.
The Court agrees. Plaintiff lives in Santa Cruz,
which is in the San Jose Division, and filed Carrick II,
Carrick III, and Carrick IV in the San Jose Division.
Moreover, Plaintiff filed his state court complaint in
Santa Cruz County, which is in the San Jose Division.
Given this backdrop, it is not credible for Plaintiff
to argue that filing Carrick V in the San Francisco Di­
vision less than two weeks after this Court denied
Plaintiff’s motion for leave to file a motion for recon­
sideration of this Court’s dismissal of Carrick IV was
not forum shopping. Indeed, Plaintiff concedes as
much. In opposing the motion for sanctions, Plaintiff
claims that the “San Francisco Division of Northern
California District is a more likely venue than the San
Jose Division. Judge Koh’s specialty is Patent and Copywrite [sic] Law serving the electronics industry and
not Real Estate Law.” Opp. at 2-3. Clearly, Plaintiff was
attempting to avoid having the undersigned judge, who
has dismissed Carrick II, Carrick III, and Carrick IV,
from presiding over Carrick V. That contravenes Local
Rule 3-3(c), and the Court agrees with Defendants that
dismissal of this action is an appropriate sanction.

App. 22
In sum, the Court GRANTS Defendants’ motion
for sanctions because Plaintiff has violated Local Rule
3-3(c). This provides an independent basis for dismiss­
ing the instant suit, in addition to the reasons set forth
the discussion [sic] of Defendants’ motion to dismiss.
IV. CONCLUSION
For the foregoing reasons, the Court GRANTS De­
fendants’ motion for sanctions and GRANTS Defend­
ants’ motion to dismiss. This action is dismissed with
prejudice. The Clerk shall close the file.
IT IS SO ORDERED.
Dated: June 28, 2018
/s/ Lucy H. Koh
LUCY H. KOH
United States District Judge

App. 23
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
Case No. 18-CV-00454-LHK

PAUL CARRICK,

JUDGMENT

Plaintiff,

(Filed Jun. 28, 2018)

v.
TAMYRA RICE, et al.,
Defendants.

On June 28, 2018, the Court GRANTED Defend­
ants’ motion for sanctions and GRANTED Defendants’
motion to dismiss with prejudice. Accordingly, the Clerk
shall enter judgment in favor of Defendants. The Clerk
shall close the file
IT IS SO ORDERED.
Dated: June 28, 2018
/s/ Lucy H. Koh
LUCY H. KOH
United States District Judge

App. 24
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAUL CARRICK,
Plaintiff-Appellant,
v.
TAMYRA ANN RICE, Santa
Cruz County Counsel; et al.,
Defendants-Appellees.

No. 18-16257
D.C. No.
5:18-cv-00454-LHK
Northern District
of California,
San Jose
ORDER
(Filed Apr. 25, 2019) .

Before: TROTT, TALLMAN, and CALLAHAN, Circuit
Judges.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Carrick’s petition for rehearing en banc (Docket
Entry Nos. 20 and 22) is denied.
No further filings will be entertained in this closed
case.

App. 25
APPENDIX D
THE UNITED STATES OF AMERICA
To all to whom these Presents shall come, Greeting
Homestead Certificate No. 4889
Application 8206
Whereas, There has been deposited in the General
Land Office of the United States a Certificate of the
Register of the Land Office at San Francisco, Califor­
nia, whereby it appear that pursuant to the act of
Congress approved 20th May, 1862, “ To secure Home­
steads to actual Settlers on the Public Domain,” and
the acts supplemental thereto, the claim of Thomas
Mayman has been established and duly consummated,
in conformity to law, for the South East quarter of Sec­
tion two in Township ten South East of Range one East
of Mount Diablo Meridian in California, containing one
hundred and sixty acres according to the Official Plat
of the Survey of said Land, returned to the General
Land Office by the Surveyor General.
Now know ye that there is therefore, granted by
the United states unto the said Thomas Mayman the
tract of Land above described: To have and to hold the
said tract of Land, with the appurtenances thereunto
the said Thomas Mayman and to his heirs and assigns
forever, subject to any tested and accrued water rights
for mining, agriculture, manufacturing, or other pur­
poses, and rights to ditches and reservoirs and used in
connection with such water rights as may be recog­
nized and acknowledged by the local customs, laws,
and decisions of courts, and also subject to the right of

App. 26
the proprietor of a vein or lode to extract and remove
his ore therefrom, should the same be found to pene­
trate or intersect the premises hereby granted, as pro­
vided by law.
In testimony whereof, I Grover Cleveland,
President of the United States of America,
have caused these letters to be made Patent,
and Seal of the General Land Office to be
hereunto affixed.
Given under my hand, at the City of Washing­
ton, the eighteen day of December in the year
of our Lord one thousand eight hundred and
ninety-three and of the Independence of the
United States the one hundred and eight­
eenth
By the President: Grover Cleveland, By M. McKean,
Secretary, L.Q.D. Lamar, Recorder of General Land Of­
fice

App. 27
APPENDIX E
Santa Cruz California Code Enforcement - RedTagging Land Owners by Deceit

By Joseph Snook
Investigative Reporter
Land theft by government is a rapidly growing reality
for many property owners across the country. “You
didn’t pay property taxes,” poof, your land is taken.
‘Your home isn’t quite up to code, we’re (government)
forcing the sale,” gone! “The property presents immi­
nent threat to life or limb,” taken by government. Em­
inent Domain . . . These are just some of the examples
used by government to strip a person’s right to private
property. In Santa Cruz, CA. the right to NOT, “be safe
and secure in your . . . houses . . . ,” just might be the
official land-theft blueprint for out of control adminis­
trative government agencies across the country. Essen­
tially, the Fourth Amendment to the U.S. Constitution
has been stripped by administrative government rules.
Planning departments and code-enforcement officers
(administrative government), backed by legal counsel,
make their own rules, and take property with no ac­
countability whatsoever. Roy Kaylor and others who
own land in Santa Cruz can attest to that. Many Santa
Cruz Co., CA. residents have horrific stories to tell.
Their land is literally being stolen.
Roy Kaylor still (albeit barely) “owns” roughly 154
acres of prime timberland in Boulder Creek, located
within Santa Cruz County. Large pulchritudinous

App. 28
Redwoods grow across his shaded mountain property.
Kaylor, a 79-year-old gentleman, says he’s a, “Tree hug­
ger” while describing his property. To a layperson, he
may seem socially awkward. He’s reserved. At a
glimpse, he looks rough around the edges. With a long
beard, grey colored hair tied into a ponytail, it’s easy to
judge him. Yet beneath the scruffy beard and all, he’s
a soft-spoken and kind-hearted gentleman.
Literally, he’s more than just that. He’s a genius. His
list of lifetime accomplishments could easily fill a large
textbook. His inventions alone are breathtaking. Ac­
cording to sources, Roy invented the, “first prototype of
the Toyota Prius. He’s been building many things
throughout his life, yet energy efficient automobiles
rank among the top. His inventions even created some
havoc for Roy back in the 80’s. GMC allegedly had gov­
ernment agencies accost Roy out of spite when an elec­
tric car he’d built out-dragged a Corvette during a
street race back in 1982. Roy invented and prototyped
the main power supplies for the Voyager spacecrafts
that have been working for over 40 years. He designed
and prototyped a machine to test submarine-launched
Polaris ICBMs to avoid blowing up at launch, which
some historians have credited with the U.S. winning
the Cold War. Another huge accomplishment for Roy
was the Chevy Bolt. He, designed, prototyped and
tested the motor controller used in the Chevy Bolt,
‘Motor Trends care [sic] of the year in 2017.’
As his inventions produced income, he sought to buy
property where he could work, live and store his prize
belongings. Ending his search, Roy chose beautiful

App. 29
Santa Cruz County 34 years ago. Little did Roy know;
his land wasn’t exactly his.
Santa Cruz County reportedly wanted Roy to subdi­
vide his property. Subdividing would create more tax
lots, which in turn would create more tax revenue for
the county. They even provided Roy with a proposal
and developers to do just that. Roy had other plans. He
wanted to preserve the land and the nine endangered
species on the land. He planted 7,800 Redwood trees.
He also wanted to build two large steel buildings to
store many of his vehicles, along with other inventions.
He was reportedly told by Tony Falcone at the county
that he could build two, 2,400 square ft. steel buildings.
Then, when he went to obtain the permits to do so, he
was denied. Roy was told by Kevin Fitzpatrick, whose
scope of work reportedly did not include permit ap­
proval, that he could not build - at least not what Roy
wanted to build. Instead, Roy recalled Fitzpatrick, a
then code-enforcement officer, saying, “y°u can only
build one 600 sq. ft. building, and it must be completed
within one year. Everything on the 150+ acre property
must be stored inside it.” Fitzpatrick, who is now re­
tired, was named by several others who shared similar
negative experiences with Santa Cruz County. Being
told, “no” by Fitzpatrick was a huge let down for Roy.
Roy attempted to build on many other occasions, but
the same answer always echoed .. . “Sorry, you can’t.”
Former and current county employees were contacted
to understand why those in power would attempt to
steal private property. Former County Administrative
Officer Susan Mauriello was mentioned multiple

App. 30
times. One former County employee stated, “she was
the ‘CEO,’ and was for the last 30 years. Even the su­
pervisors wouldn’t do anything without talking to her
first. She was the God of the county. If she didn’t like
you or what you were doing, you didn’t get to do it.” Roy
stated that while she worked for the county she was
behind many of his problems. Hearing it from other
sources helped to better understand Roy’s troubles. To
some, Mauriello was hailed as an amazing woman. To
many whom this writer spoke with, Mauriello truly
embodied what was published about her in the Santa
Cruz Sentinnel, albeit with a twist. She took the
county coffers, “from $178 million to $700 million dur­
ing her tenure ...” The only real difference described
was how Mauriello helped get the funds. Many called
it, “theft.” It was nothing less than “Red-Tagging by de­
ception,” to be specific.
Without knowing what to do, Roy stored many per­
sonal belongings on his land and began looking for
other property outside of the county.
He installed intricate steel gates and fabricated locks
to protect his property while he was gone. But that
didn’t stop the thieves. Over the years, Roy stated his
property was robbed and vandalized hundreds of
times. Valuable cars were flipped over. Engines were
literally ripped from his prized cars. “Over one-million
dollars of valued property was destroyed or stolen,” ac­
cording to Roy. Although the police never made one sin­
gle arrest that led to a conviction in connection with
the thefts, dozens of police reports remain on file at the
local Sheriff’s office. As Roy recalled, the Sheriff’s

App. 31
Dept, lost records of over one-hundred theft reports
when they moved offices.
Instead of catching the criminals, county code­
enforcement officers started fining Roy for the property
that was literally scattered across his land by the
thieves and, “tweekers.” Roy increased his efforts to
protect his property, but nothing worked due to his in­
ability to build adequate storage facilities. The fines in­
creased.
As the fines continued without just cause, he started
fighting back. And the fight cost him dearly. To date,
Roy has been fined, “over $40 Million,” which he has
not paid. Coupled with attorney fees, and other costs,
Roy’s out-of-pocket losses stretch closer to, “$1.5 mil­
lion dollars,” according to Roy. Roy said each Red-Tag
fine is “$5,000.00 per day,” and he’s had about, “100
Red-Tags issued to him.”
The costs for others involved with Santa Cruz County
whom this writer talked to were insanely high as
well. Chris Daly, another victim, “spent over $100k
defending his property.” He, too, mentioned retired
code-enforcement officer Kevin Fitzpatrick. As Daly re­
called, “Fitzpatrick stonewalled me,” several times.
When Daly’s property got red-tagged it also affected
his taxes which is reportedly against the law. “I paid
the tax fines to keep my property and they just put
them back on the next year.” Another former county
employee stated, “These fees that they’re charging,
they aren’t legal, man. I’ve watched two RV parks get

App. 32
stolen (by the county). The county wanted the property,
so they red-tagged them.”
Another victim of the county, Lowell Webb, had similar
accounts about the underhanded tactics used. He
spent nearly ten years fighting the county.
Files upon files of people who’ve been unfairly targeted
exist. Names of people who have been let off the hook
(no permits or no fines) because of reported connec­
tions within the county also exist. According to Roy, the
County sued him under the wrong zoning as undevel­
oped rather than miscellaneous developed land.
Roy’s land has now been court-ordered to be sold
against his will. He’s also been ordered by Judge John
Gallagher to stay off his own land. The timber alone on
his property is worth at least $500K according to pro­
fessionals. The land without the timber is worth an es­
timated “$2 million, minimum.” The court is allegedly
forcing the sale to a, “nonprofit group called Peninsula
Open Space Trust (POST) for $1 million.”
Suing Santa Cruz County
The actions against Roy by Santa Cruz County would
drive most insane, yet Roy still maintains his compo­
sure. He wants to have the ability to build a place to
store his belongings and inventions, without being con­
stantly fined. If the property is forcibly sold, Roy wants
to sue the county. Several others have already voiced
their willingness to pursue a class action lawsuit

App. 33
against the county, which would likely be filed in fed­
eral court according to multiple sources.

/

App. 34
APPENDIX F
[SEAL]

County of Santa Cruz

Planning Department
701 Ocean Street, 4th Floor, Santa Cruz, Ca 95060
(831) 454-2580 Fax: (831) 454-2131
Tdd: (831) 454-2123
TOM BURNS, PLANNING DIRECTOR
PROTEST MEETING DETERMINATION
November 6, 2006
Paul M. Carrick
33900 Loma Chiquita
Los Gatos, CA 95033
RE:

Assessor’s Parcel No. 106-011-25
Notice of Violation Protest Meeting

Dear Mr. Carrick:
A Protest Meeting Request was filed on a timely basis
for a Notice of Violation issued on April 13, 2006. The
meeting was held on May 11, 2006. Jacob Rodriguez
and Kevin Fitzpatrick - Code Compliance staff - and
myself were present at the meeting.
The Notice of Violation was for the following Sections
of the County Code:
12.10.125(a)
Construction without permits of four
habitable structures and three nonhabitable structures
1.12.070(a-n)

Construct structures for habitation
without building or development per­
mits

App. 35
12.10.125(q)

Maintain a building in violation of
Codes

13.10.140(a)

Noncompliance with zoning regula­
tions. Establish or enlarge a use with­
out permits.

13.10.279(a-b)

Structures or uses in violation of zon­
ing regulations are unlawful and a
public nuisance

This letter serves as the determination on the validity
of the above alleged violations.
As part of the Protest Meeting, Mr. Rodriguez stated
that no building permit records were found for this
property. He displayed an aerial photograph of the site
showing existing structures. He also presented photo­
graphs of various structures on the property that he
referenced to a map of the property. Buildings B, D, F
and G are alleged to be habitable (see enclosed map).
You submitted written information labeled Attach­
ments A through J that included copies of court cases,
deeds, informational letters, and proof of publication.
You stated that you believe the County is estopped
from enforcing its land use regulations for your prop­
erty due to laches, estoppel, and a land patent. You
stated that you have owned the property since 1978
and 1984 and that the structures existed upon your
purchase. You did not submit proof of building permits
for the structures on the property.
I have reviewed all of the information submitted by Mr.
Rodriguez and you. It is clear to me that structures do

App. 36
exist on the property, verified by the aerial and other
photos. No permits have been found or produced for
these structures. Regarding your allegations that the
County is estopped from enforcement activities, I sent
your materials to our County Counsel for his review
and opinion. The following is his analysis:
Planning

staff has consulted with

County Counsel

REGARDING TWO OF THE ISSUES RAISED BY CARRICK’S AP­
PEAL. First, Carrick has asserted that a document
THAT HE RECORDED IN 1999 WITH THE COUNTY EXEMPTS
HIM FROM ZONING REGULATION BY THE COUNTY. SECOND,

Carrick

alleges

that

the

County’s

long-term

KNOWLEDGE OF THE SUBSTANDARD CONDITIONS ON HIS
PROPERTY AND THE COUNTY’S FAILURE TO PURSUE EN­
FORCEMENT RELATING TO SUCH CONDITIONS PRECLUDES

County from pursuing the current enforcement
action. Both of these assertions are without merit.
the

Alleged Federal Land Patent
Carrick alleges that because his property was initially
transferred from public to private ownership by federal
land patent that his property is not subject to County
zoning regulation. Carrick cites to Summa Corporation
v. California, a United States Supreme Court case to
support his position. The Summa case is distinguisha­
ble on its basic facts because it involved California seek­
ing to enforce a public trust ownership interest and not
a private property owner seeking to avoid state regula­
tion.

App. 37
Furthermore, applicable law is contrary to Garrick’s as­
sertions. In Virgin v. County of San Luis Obispo, (9th
Cir. 1999) 201 F.3d 1141, 1143 the court explained that
once a federal patent issues, the incidents of land own­
ership are, for the most part, matters of local property
law to be vindicated in local state courts. Similarly the
court in County of Sonoma v. Bisso, (1998 U.S. Dist.
LEXIS 17861) explained that adjudication of compli­
ance with a local zoning ordinance did not require the
court to interpret a Federal Act passed in 1851 relating
to land patents.
Throughout the country, courts have rejected the ap­
proached [sic] asserted by Carrick. See Cragin v. Comerica (unpub,) (6th Cir. 1995) 69 F.3d 437 [argument
that federal jurisdiction arises because plaintiffs are
heirs or assignees of the United State [sic] by virtue of
the original land grant is completely lacking in merit;
Wisconsin v. Glick, (7th Cir. 1986) 782 F.2d 670 [landowners criminally prosecuted for slander against title
for filing bogus land patents that confounded recording
statutes]. As the court in Glick explained some landowners have decided that it is cheaper to write a “land
patent” purporting to convey unassailable title and to
file that “patent” in the recording system than to pay
their debts. The theory is that because the new “patent”
is derived from the original patent from the United
States that conveyed a clear title, no state may allow
subsequent encumbrances on that title. The court in
Glick explained that courts have held contrary to this
theory and that federal patents do not prevent the

App. 38
creation of later interests and have nothing to do with
claims subsequently arising under state law. Id.
Thus, based upon County Counsel’s review, Carrick’s
claims regarding the effect of the federal patent and
subsequent recording in 1999 have no merit whatso­
ever.
Estoppel!Laches
To support his claim that the County should be es­
topped from enforcing its zoning ordinance, Carrick
provides unsupported assertions that: (1) planning in­
spectors had been on the properly in about 1976; and
(2) Hooper, his predecessor in interest, appeared before
the Board of Supervisors around the same time and the
Board declined to pursue enforcement. Even assuming
for the sake of argument that these facts are true, Car­
rick’s claim of laches!estoppel has no merit.
In terms of support, Carrick provides a legal brief filed
by the Zumbrun Law Firm in an unrelated case in Con­
tra Costa County entitled Golden Gate Water Ski Club
v. County of Contra Costa.1 Such a brief does not con­
stitute legal authority; more importantly, a determina­
tion of whether the equitable relief of laches or estoppel
should be granted is primarily a factual issue so Contra
Costa case is irrelevant to the facts relating to Carrick.

1 County Counsel indicates that on June 6, 2006 the trial
court in the Contra Costa County case ruled for the County on all
issues and specifically rejected the laches/estoppel arguments ad­
vance [sic] by the Petitioner in that case.

App. 39
Essentially, the doctrine of estoppel/laches as applied to
a public entity involves a balancing test that compares
the injustice to the property owner if the doctrine is re­
jected as compared to the impact on the public interest
in enforcement of the applicable zoning ordinances.
Generally, equitable remedies such as estoppel and
laches do not apply when their application would nul­
lify a public policy. City and County of San Francisco v.
Ballard, (2006) 136 Cal.App.4th 381, 393. Estoppel
cannot be invoked to prevent enforcement of zoning or­
dinance. Estoppel does not arise from the failure to en­
force an ordinance against a landowner. City and
County of San Francisco v. Meyer, (1962) 208
Cal.App.2d 125, 132-33 [acquiescence in an illegal use
for 20 years did not preclude the city from enforcing its
ordinance]. Courts do not invoke estoppel to grant de­
velopment rights outside the normal planning and re­
view process. Toigo v. Town of Ross (1988) 70
Cal.App.4th 309, 321,. If a properly owner does not have
building permit, estoppel does not apply. Id.

V'

Thus, based upon the facts presently before the County,
Carrick’s claim of equitable estoppel against the
County has no merit and must be rejected.
Based on my conclusions and those of County Counsel,
I am finding that the violations are valid. Staff costs
for processing your Protest will be added to your ac­
crued Code costs.
The next step in the enforcement process is to record a
notice of violation on the property title. If you are pro­
posing to rectify the violation, it would be prudent of

/J

i

App. 40
you to inform your Code Compliance Officer as soon as
possible.
In accordance with County Code Section 19.01.080,
this decision is final and not subject to further appeal.
Sincerely,
/s/ Glenda Hill
Glenda Hill, AICP
Principal Planner
Cc: Jacob Rodriguez, Code Compliance Officer
enclosure

i

